nta '

*-

f

r!

1

\ {•r:

v.

v„

-

i,;

t:3

r*
A

&

/

::

NO.

r ;t

f;o;;r:, U.S.

AU3 15 2320

3tt tljc

Supreme Court of tfje fHntteb States L a.

A" !~ TH" CLERK

IN RE ABDUL MOHAMMED, PETITIONER,

On Petition for Writ of Mandamus/Prohibition to
the United States District Court for the Northern
District of Illinois and the Executive Committee
of the United States District Court for the
Northern District of Illinois

PETITION FOR WRIT OF
MANDAMUS/PROHIBITION

Abdul Mohammed
Pro Se Petitioner
258 E. Bailey Rd, Apt C,
Naperville, IL 60565
(630) 854-5345
aamohammed@hotmail.com

August 14, 2020

RECEIVED
AUG 1 9 2020

Li Lr

QUESTION PRESENTED
The questions presented are:
1) whether the Executive Committee’s Order
entered against the Petitioner on August 13, 2020 is
legal;
2) whether the individual Respondents who are
also Federal Judges can harass and retaliate against
the Petitioner with prejudice towards Petitioner’s
race, religion, color, ethnicity, citizenship, disabilities
etc.
PARTIES TO PROCEEDING
Petitioner (Respondent in the Executive Committee’s
Order and Mandamus Petitioner in this court) is
Abdul Mohammed.
Respondents in this court are United States District
Court for the Northern District of Illinois, Chief Judge
Rebecca Pallmeyer, Judge Jorge Alonso, Judge Gary
Feinerman, Judge John Blakey, Judge Ronald
Guzman, Judge Robert Gettleman and Members of
the Executive Committee of the United States District
Court for the Northern District of Illinois.

1

TABLE OF CONTENTS
QUESTIONS PRESENTED.........................
TABLE OF AUTHORITIES.........................
PETITION FOR WRIT OF MANDAMUS ....
OPINIONS BELOW.....................................
JURISDICTION..........................................
STATEMENT OF THE CASE.....................
REASONS FOR GRANTING MANDAMUS
CONCLUSION............................................

.2

4
5
5
5
5
11
13

2

APPENDIX
Appendix A
Order of the Executive Committee
App-001-002
(August 13, 2020)

3

TABLE OF AUTHORITIES
Cases:
Ringgold-Lockhart v. County of Los Angeles,
No. 11-57231 (9th Cir. 2014)

6, 10,11,12

Cheney v. United States Dist. Court for D.C. (03475) 542 U.S. 367 (2004) 334 F.3d 1096)............ 5
Pennsylvania v. Muniz, 496 U.S. 582, 595-96 (1990)
7
Doe v. the United States, 487 U.S. 201, 212 (1988)..
7
Watts v. Indiana, 338 U.S. 49, 54 (1949).............. 8
Mohammed v the State of Illinois,
Case.No.20-cv-50133, ND.I1 .................................. .8
Mohammed v Judge Jorge Alonso et.al, Case No.
20-cv-3481, (N.D.I11)................................................. 9
Constitutional Provisions:
1st Amendment Right to Petition

11, 12

Due Process and Equal Protection Clause of the 5th
Amendment

11,12

Due Process and Equal Protection Clause of the 14th
Amendment

11,12

4

PETITION FOR WRIT OF MANDAMUS
This case presents unique events which has
culminated in retaliation and harassment against
the Petitioner by the Executive Committee and
the individual Respondents who are Federal
Judges with prejudice towards Petitioner’s race,
color, religion, ethnicity, national origin,
citizenship and disabilities etc. A Federal Judge
can only hold office during his/her good behavior
and the behavior of the individual Respondents is
far from good
OPINIONS BELOW
The Executive Committee’s Order is reproduced
at App-001-002.
JURISDICTION
The jurisdiction of this Court is invoked under 28
U.S.C. 1651. The judgment of the Executive
Committee was entered on August 13, 2020. A
Writ of Mandamus is an order from a court to an
inferior government official ordering the
government official to properly fulfill their official
duties or correct an abuse of discretion. (See,
e.g. Cheney v. United States Dist. Court for D.C.
(03-475) 542 U.S. 367 (2004) 334 F.3d 1096.)
STATEMENT OF THE CASE
On August 13, 2020 the Executive Committee
entered an Order in which it stated that after
entering the first Executive Committee Order on
June 17, 2020 the Executive Committee again met
on July 6, 2020 and “determined that Abdul
Mohammed’s efforts in this District have become
burdensome to the Committee, straining the
resources of the Court and the Clerk’s Office,
therefore IT IS FURTHER ORDERED that for

5

a period of 12 months from the date of this order,
any complaints, motions, or presentments
received from Abdul Mohammed shall be
discarded unfiled”. The Petitioner would like to
bring to this court’s notice that the Executive
Committee Order of August 13, 2020 is nothing
but a response to the Petitioner’s pending Petition
for Writ of Mandamus in this court (Case # 205136). In Case # 20-5136 the Petitioner pointed
out the shortcomings from the proceedings which
lead to the entering of Executive Committee
Order of June 17, 2020. The Petitioner pointed out
in Case # 20-5136 that without a Notice and
Opportunity to be Heard, Adequate Record
for Review, Substantive Findings of
Frivolousness or Harassment and Narrow
Tailoring of the Executive Committee Order,
the Executive Committee Order is illegal and void
ab initio pursuant to Ringgold-Lockhart u. County
of Los Angeles, No. 11-57231 (9th Cir. 2014. The
Executive Committee Order of August 13, 2020 is
an effort in vain by the individual Respondents to
somehow bring the Executive Committee Order of
June 17,2020 in compliance with RinggoldLockhart. The Executive Committee and the
courts of the individual Respondents are prime
examples of “Kangaroo Courts” where judgements
are entered first then the pleadings of the
Defendants/Respondents are reviewed later. The
United States Supreme Court’s frequent
references to the historical abuses of the Star
Chamber in its defense of our own constitutional
safeguards also have striking analogies in the
present case. For example, the Star Chamber’s
abuses are considered to have been a primary
motivating force behind the development of the
protections against compelled self-incrimination

6

contained in the Fifth Amendment:
This definition of testimonial evidence reflects an
awareness of the historical abuses against which
the privilege against self-incrimination was
aimed. “Historically, the privilege was intended to
prevent the use of legal compulsion to extract
from the accused a sworn communication of facts
which would incriminate him. Such was the
process of the ecclesiastical courts and the Star
Chamber - the inquisitorial method of putting the
accused upon his oath and compelling him to
answer questions designed to uncover uncharged
offenses, without evidence from another source.
The major thrust of the policies undergirding the
privilege is to prevent such compulsion”.
“Pennsylvania v. Muniz, 496 U.S. 582, 595-96
(1990) (emphasis added) (quoting Doe v. the
United States, 487 U.S. 201, 212 (1988)). Like the
suspects called before the Star Chamber, the
Petitioner was given no real choice but to have his
constitutional rights violated, left, right and
center by the Executive Committee and the
individual Respondents, to tolerate crimes and
torts committed against him by the Executive
Committee and the individual Respondents and to
tolerate physical and mental injuries committed
against him by the Executive Committee and the
individual Respondents. Similarly, the United
States Supreme Court has referenced the Star
Chamber to illustrate the distinction between our
modern accusatorial system and the antiquated
inquisitorial system:
“Ours is the accusatorial as opposed to the
inquisitorial system. Such has been the
characteristic of Anglo- American criminal justice
since it freed itself from practices borrowed by the
Star Chamber from the Continent whereby an

7

accused was interrogated in secret for hours on
end. Under our system, society carries the burden
of proving its charge against the accused, not out
of his own mouth. ...The law will not suffer a
prisoner to be made the deluded instrument of his
own conviction.’ The requirement of specific
charges, their proof beyond a reasonable doubt,
the protection of the accused from confessions
extorted through whatever form of police
pressures, the right to a prompt hearing before a
magistrate, the right to assistance of counsel, to
be supplied by government when circumstances
make it necessary, the duty to advise an accused
of his constitutional rights-these are all
characteristics of the accusatorial system and
manifestations of its demands”. Watts v. Indiana,
338 U.S. 49, 54 (1949) (emphasis added) (internal
citations omitted).Executive Committee and the
courtrooms of the individual Respondent, hardly
“freed” from the practices of the Star Chamber,
have many of the characteristics of an
inquisitorial system. Further the Petitioner
requests that this court take judicial notice of the
dismissal of Mohammed v the State of Illinois,
Case.No.20-cv-50133 which was dismissed by
Judge Blakey in concert with the other individual
Respondents and the Executive Committee in an
unlawful manner when Judge Blakey dismissed
the case Case.No.20-cv-50133 , he ruled that the
complaint is dismissed because it is in violation of
Rule 8. In his minute order which dismissed the
Case.No.20-cv-50133, Judge Blakey ruled that the
Petitioner’s complaint is 1,125 pages (with an
additional 2,852 pages of exhibits) when in fact
the complaint was only 558 pages with 3419 pages
of Exhibits and Judge Blakey added 567 pages to
the complaint and made the length of the

8

complaint as the cause of dismissal under Rule 8.
Further the minute order which dismissed the
Case.No.20-cv-50133 stated that Judge Blakey
was not able to detect one single Federal Claim
when in fact there were 28 State Law Claims. A
Judge who adds pages to a complaint on his own
and removes Exhibits on his own and rules State
Law Claims as Federal Claims has not been heard
before. Judge Blakey had earher tried to dismiss
Case.No.20-cv-50133 under 28 U.S.C. § 1915Abut
when the Petitioner informed Judge Blakey that
he is not a prisoner and 28 U.S.C. § 1915A only
applies to the Prisoner, Judge Blakey used Rule 8
as a pretext to dismiss Case.No.20-cv-50133 in an
unlawful manner as described above. Further the
Petitioner requests this court to take judicial
notice of Mohammed v Judge Jorge Alonso et.al,
Case No. 20-cv-3481,(N.D.Ill) which was
dismissed by Judge Manish Shah on June 29,
2020 and nowhere in his order which dismissed
the Case No. 20-cv-3481, Judge Shah stated that
the complaint was frivolous but when the
Petitioner submitted his Application to proceed on
his appeal In Forma Pauperis to Judge, as per
information and belief the Executive Committee
and the individual Respondents pressurized
Judge Shah to certify the appeal as frivolous and
not taken in good faith and to deny Petitioner’s
Application to proceed on his appeal In Forma
Pauperis and which was eventually denied by
Judge Shah who ruled in his order that the appeal
will be frivolous and not taken in good faith after
he did not ruled the complaint as frivolous when
he dismissed the Case No. 20-cv-3481. The
statement of the individual Respondents in the
Executive Committee Order of August 13, 2020
that they considered Petitioner’s Responses before

9

entering the Executive Committee Order of June
17, 2020 is a big lie from pathological liars who
also call themselves as Federal Judges. Further
the individual Respondents punished the
Petitioner for filing the Notice of Appeal and
Application to proceed on appeal In Forma
Pauperis against the Executive Committee Order
of June 17,2020 in the District Court. Petitioner
called the District Court and the Seventh Circuit
to ask whether he can file his Notice of Appeal and
Application to proceed on appeal In Forma
Pauperis against the Executive Committee Order
of June 17,2020 in the District Court after the
Executive Committee Order of June 17,2020 and
both the District Court and the Seventh Circuit
informed the Petitioner that he has to file the
Notice of Appeal and Application to proceed on
appeal In Forma Pauperis against the Executive
Committee Order of June 17,2020 in the District
Court as a matter of law. The Executive
Committee Order of August 13, 2020 states that
the Application to proceed on Appeal In Forma
Pauperis filed by the Petitioner on June 26, 2020
is one of the cause for entering of the Executive
Committee Order of August 13, 2020. In
Ringgold-Lockhart the court ruled, “Most
troubling, the district court’s list includes the
Ringgolds’ response to its tentative order finding
them vexatious. As explained, the Ringgolds had
a due process right to be heard on this matter. The
district court faults the Ringgolds for “reiterating
old facts and arguments” in their response to the
court order. As the Ringgolds had to argue that
their filings were not frivolous, such repetition
was inevitable. What’s more, the district court
invited their response, so it is particularly
inappropriate to hold it against them”. Just like

10

Ringgold-Lockhart, in the instant case the
Executive Committee has punished the Petitioner
for filing his Responses in the Executive
Committee against the Motions to have him
declared a vexatious litigant and for filing his
Application to proceed on Appeal In Forma
Pauperis after inviting the Petitioner to file his
Application to proceed on Appeal In Forma
Pauperis in the District Court. Further the
Executive Committee Order of August 13, 2020
was entered in retaliation of Petitioner’s Writ of
Mandamus and Motion for Judicial Notice in Case
# 20-5136 pending in this court. The fact that
Executive Committee Order of August 13, 2020
was entered after it was determined by the
Executive Committee on July 6, 2020 to enter
such an Executive Committee Order, shows that
the Executive Committee Order of August 13,
2020 was entered in retaliation of the Petitioner’s
Petition for Writ of Mandamus and the Motion for
Judicial Notice filed on August 12, 2020 and
served upon the individual Respondents on
August 12,2020. When the Executive Committee
had determined on July 6, 2020 to enter the
Executive Committee Order, why did they wait
until August 13, 2020?
REASONS FOR GRANTING THE PETITION
In face of the arguments made above Executive
Committee’s Order of August 13, 2020 offends
Ringgold-Lockhart and in addition, the Executive
Committee’s Order of August 13, 2020 was
entered in violation of the Petitioner’s 1st
Amendment Right to Petition the government, 5th
and 14th Amendment Rights to Due Process and
Equal Protection because there was no Notice
and Opportunity to be Heard and no hearing

11

was held, because there is no Adequate Record
for Review, because there is no Substantive
Findings of Frivolousness or Harassment,
because the Executive Committee’s Order of
August 13, 2020 was not Narrowly Tailored,
because the Executive Committee’s Order of
August 13, 2020 usurped matters upon which it
has no jurisdiction whatsoever (Plaintiffs
complaints filed in State Court and other District
Courts) and because the Executive Committee
punished the Petitioner for filing his Responses in
the Executive Committee against the Motions to
have him declared a vexatious litigant and for
filing his Application to proceed on Appeal In
Forma Pauperis after inviting the Petitioner to
file his Application to proceed on Appeal In Forma
Pauperis in the District Court. The Executive
Committee erred in entering the Executive
Committee’s Order of August 13, 2020 in violation
of the Petitioner’s 1st Amendment Right to
Petition the government and also by not affording
Plaintiff the Due Process and Equal Protection
rights’ requirements of the 5 th and 14th
Amendment as mentioned in Ringgold-Lockhart.
The Petitioner has no other avenue of seeking
relief because there is no adequate record for
review which is one of the requirements for the
entry of a pre-filing order pursuant to RinggoldLockhart. Hence the Executive Committee’s
Order of August 13, 2020 is void ab intio. Further
this court should decide whether the individual
Respondents can remain Federal Judges because
their behavior as described above is far from good
and the Federal Judges can only remain in their
positions during “good behavior”. For a complete
understanding of how the Executive Committee
and the individual Respondents have harassed

12

the Petitioner with prejudice towards his race,
religion, color, ethnicity, national origin,
disabilities etc., please take judicial notice of the
Petition for Writ of Mandamus and the Motion for
Judicial Notice pending in this court (Case # 205136).
CONCLUSION
For the reasons set forth above, this court should
grant the Petition for Mandamus/Prohibition and
vacate the Executive Committee’s Order of
August 13, 2020.
Respectfully submitted,
Abdul Mohammed
Pro Se Petitioner
258 E. Bailey Rd, Apt C,
Naperville, IL 60565
630-854-5345
amohammed@hotmail.com

G@<M

August 14, 2020

13

